<html>
<title> - CYBERSECURITY, TERRORISM, AND BEYOND: ADDRESSING EVOLVING THREATS TO THE HOMELAND</title>
<body><pre>[Senate Hearing 113-712]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-712

                 CYBERSECURITY, TERRORISM, AND BEYOND:
              ADDRESSING EVOLVING THREATS TO THE HOMELAND

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS


                             SECOND SESSION

                               __________

                           SEPTEMBER 10, 2014

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               
                               
                               
                               
                               

                         U.S. GOVERNMENT PUBLISHING OFFICE 

92-903 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001







        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota

                  Gabrielle A. Batkin. Staff Director
               John P. Kilvington, Deputy Staff Director
            Harlan C. Geer, Senior Professional Staff Member
          Stephen R. Vina, Chief Counsel for Homeland Security
               Keith B. Ashdown, Minority Staff Director
         Christopher J. Barkley, Minority Deputy Staff Director
          William H.W. McKenna, Minority Investigative Counsel
         Daniel P. Lips, Minority Director of Homeland Security
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Carper...............................................     1
    Senator Coburn...............................................     3
    Senator Johnson..............................................    18
    Senator McCain...............................................    20
    Senator Baldwin..............................................    22
    Senator Portman..............................................    25
    Senator Ayotte...............................................    28
Prepared statements:
    Senator Carper...............................................    35
    Senator Coburn...............................................    37

                               WITNESSES
                     Wednesday, September 10, 2014

Hon. Francis X. Taylor, Under Secretary, Office of Intelligence 
  and Analysis, U.S. Department of Homeland Security; and Hon. 
  Suzanne E. Spaulding, Under Secretary, National Protection and 
  Programs Directorate, U.S. Department of Homeland Security.....     6
Nicholas J. Rasmussen, Deputy Director, National Counterterrorism 
  Center, Office of the Director of National Intelligence........     9
Robert Anderson, Jr., Executive Assistant Director, Criminal, 
  Cyber, Response, and Services Branch, Federal Bureau of 
  Investigation, U.S. Department of Justice......................    13

                     Alphabetical List of Witnesses

Anderson, Robert Jr.:
    Testimony....................................................    13
    Prepared statement...........................................    57
Rasmussen, Nicholas J.:
    Testimony....................................................     9
    Prepared statement...........................................    47
Taylor, Hon. Francis X.:
    Testimony....................................................     6
    Joint prepared statement with Ms. Spaulding..................    38

                                APPENDIX

Information submitted by Senator Baldwin.........................    64
Responses to post-hearing questions for the Record:
    Mr. Taylor and Ms. Spaulding.................................    72
    Mr. Rasmussen................................................    92

 
                 CYBERSECURITY, TERRORISM, AND BEYOND:
              ADDRESSING EVOLVING THREATS TO THE HOMELAND

                              ----------                              


                     WEDNESDAY, SEPTEMBER 10, 2014

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:32 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Thomas R. 
Carper, Chairman of the Committee, presiding.
    Present: Senators Carper, Baldwin, Coburn, McCain, Johnson, 
Portman, and Ayotte.

              OPENING STATEMENT OF CHAIRMAN CARPER

    Chairman Carper. Good morning, everyone. Great to see you. 
Welcome, and we thank you for joining us and look forward to 
your testimonies.
    Almost every year, this Committee holds a hearing to review 
a multitude of threats to our homeland and examine how our 
government is working to counter those threats. We routinely 
hear from the Department of Homeland Security (DHS) and we hear 
from the Federal Bureau of Investigation (FBI) and the National 
Counterterrorism Center (NCTC) about how we can best keep 
Americans safe from those who would seek to carry out deadly 
attacks against our country and its people. We also hear about 
actors in cyberspace that want to drain our bank accounts, who 
want to shut down our financial systems, our electric grid, 
steal our individually identifiable information and our 
identities, as well as the Research and Development (R&D) that 
will enable American businesses and our military to remain pre-
eminent in the world.
    Assessing these ever-changing, broad threats and making 
sure our government continues to hone its ability to stop them 
remains a top priority for this Committee, particularly as we 
approach another September 11, 2001 anniversary. This year, our 
hearing takes on an added significance as our Nation confronts 
a growing terrorist threat in Iraq and Syria. As we sit here 
today, our military is engaging in limited air strikes in Iraq 
in an effort to dislodge and repel that threat. Later this 
evening, President Obama will address our Nation. He is 
expected to share with us and the world the steps that he is 
recommending be taken in Iraq and in Syria to reverse the 
expansion of the Islamic State of Iraq and Syria (ISIS) and to 
enable the people who live in those countries to reclaim their 
lives.
    Much of the world has been exposed to a steady stream of 
deeply disturbing images from those regions in recent weeks: 
brutal executions, human rights atrocities, repression of 
women, and a seemingly endless procession of masked militants 
defiantly waving the black flag of jihad in celebration of 
their brutality.
    Effectively addressing the threat from the newly proclaimed 
Islamic State will require a multifaceted strategy, and that 
strategy will need a military component and the development of 
a robust international coalition to execute it. Among the goals 
of that strategy is to ensure that the Islamic State of Iraq 
and Syria does not establish a long-term safe haven from which 
it can launch attacks against either our allies or our 
homeland--much like we saw al-Qaeda do in the days before 
September 11, 2001.
    Today we will examine the steps that our Federal Government 
has already taken, along with the steps that we still need to 
take, to prevent this from happening. We will drill down on 
this threat and its impact on our homeland, both in this open 
hearing as well as in a classified briefing directly following. 
But that is not all we are going to do. In addition to 
examining the more conventional terrorist threats the 
instability in Iraq and Syria may pose, we will also closely 
examine another major threat that affects our homeland, and 
that is, daily cyber attacks.
    Every day nation states and their affiliates--criminals, 
terrorists, and hackers--launch cyber attacks against our 
government agencies, our businesses, and important parts of our 
daily lives such as utilities and financial networks. Some of 
these actors want to steal our sensitive information to sell it 
on the black market or to gain a competitive edge. Others are 
trying to make a political point. Some, however, would like to 
use a cyber attack to cause wide-scale economic damage or even 
physical harm. Many of them are good at it, and they are 
getting even better. We need to stay a step ahead of them. 
Today we will hear in the open portion of this hearing and also 
in the closed portion how we plan to do that, not unlike the 
steps we have taken to address terror threats in the wake of 
September 11, 2001.
    Congress clearly has a role to play here. Actually, several 
roles. One of them is an oversight role. It is one that we take 
very seriously. Another is a legislative role that involves 
developing legislation to help enable America to anticipate and 
repel the cyber attacks that we face on an almost daily, 24/7 
basis today. In the last several months, this Committee has 
completed action and reported three separate cyber bills 
unanimously to the full Senate. One bill would significantly 
enhance the capabilities of the Department of Homeland 
Security's cyber workforce. Another would better protect 
Federal agencies from cyber attack. And a third would codify 
the cyber center that the Department of Homeland Security uses 
to monitor and respond to attacks to strengthen its ability to 
do so. I am grateful to Dr. Coburn and his staff for working 
closely with us on each of those pieces of legislation.
    Yesterday in an op-ed in The Hill newspaper, Secretary 
Johnson recognized the bipartisan efforts of this Committee, 
and he talked about the critical need to pass cyber legislation 
this Congress. I could not agree more. In closing, as we mark 
the anniversary of September 11, 2001 tomorrow, let us keep in 
mind one of the key lessons we learned since that fateful day 
some 13 years ago, and that is, the threat is always evolving. 
Not that long ago, crooks used to rob a bank to steal our 
money. Now they click a button on a distant computer and 
accomplish the same goal. Nation states and rival businesses 
used to employ corporate insiders or retirees to steal company 
secrets. Now they send a spear-phishing e-mail. And terrorists 
used to be a distant threat in the mountains in places like 
Afghanistan or Pakistan. Now an increasing number of them are 
homegrown. They may be using European, or even, American 
passports.
    So as the threat becomes more sophisticated, more elusive, 
and more diffuse, we need to remain ever vigilant to ensure 
that our government is nimble enough to keep up with tomorrow's 
threats as they confront us. We have come a long way since 
September 11, 2001. In many respects, we are more secure than 
we were on this day 13 years ago. But the world in which we 
live remains a dangerous place. There is always more work to 
do. When it comes to securing our homeland and anticipating the 
next threat, we owe it to the American people to strive for 
perfection.
    What does it say in the Preamble of the Constitution? ``In 
order to form a more perfect union.'' It was not the idea to 
form a perfect union, but to form a more perfect union. And our 
intent here is to try to approach perfection, even if we never 
achieve it, but get as close as we can in this regard. The 
consequences of failure are simply too high, and the costs are 
too severe.
    I am pleased that we have with us today a panel of 
witnesses who work together every day to tackle the terrorist 
and cyber threats that we face. We are grateful to each of you 
for what you do with your life and for your service to our 
country.
    Now I turn to my partner in all this, Dr. Coburn, for any 
remarks that he might wish to make. Dr. Coburn.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. Well, thank you, Mr. Chairman. I concur 
with a lot of what you said. I want to thank each of our 
witnesses today for their testimony--one, for what you do; two, 
for your vigilance; and three, for the criticism you take that 
is actually not informed criticism.
    The Department of Homeland Security particularly had lots 
of problems. I am so thankful Jeh Johnson is there. General, I 
am thankful you are there, and, Suzanne, I am thankful for you 
there, plus the others that we put through the Committee.
    We have a long way to go. Where I would disagree with 
Senator Carper is I do not think we are any safer today. I 
think the threat to our country is just as great as it was pre-
9/11 based on what is happening in the world; the absolute lack 
of control of our border, especially our Southern border, and 
the inability and the corruption on both sides in terms of law 
enforcement on the border. So I think we have a long way to go, 
but I know we have dedicated leadership now in all the areas 
that are concentrating on the same goal.
    I think it is a shame that the leader of the Senate will 
not put a cybersecurity bill on the floor, one that creates 
true information sharing. Let the Senate debate it so we can 
actually start to really protect the cyber aspect of our 
government. And that requires all of us to work together in the 
cyber realm to ensure that we are not vulnerable. We are 
vulnerable today. We have seen both in Homeland Security and in 
the private sector significant breaches. Most of them are on 
nation state actors, China and Russia specifically. We should 
not fall back from talking about what they are doing and why 
they are trying to both steal our intellect and damage our 
economy.
    These are real issues. This is an important hearing for the 
American people to hear, in as much detail as possible, what is 
going on and where we need to improve.
    So, again, I would thank you all for your efforts, the FBI 
and NCTC, and valuable contributions. And having the privilege 
of sitting on both Intel and Homeland Security, I get to see as 
well as anybody what everybody is doing, and everybody is 
working in the right direction except the U.S. Senate. And my 
hope would be that we would start helping you rather than 
hurting you.
    I yield back.
    Chairman Carper. I would like to associate myself with the 
remarks of my colleague from Oklahoma. We need to move not just 
the three cyber bills that have been reported out of this 
Committee, I think unanimously, but also some version of the 
information-sharing bill. I think we can improve the bill that 
came out of the Intel Committee, and my hope is that we will 
and we will have a chance to do all four of them, at least 
those four, this year. That is my goal. If we can do more, God 
bless us.
    On behalf of all the Members of our Committee, thank you 
for joining us today.
    Our first witness is retired Brigadier General Francis 
Taylor. Mr. Taylor is the Under Secretary for Intelligence and 
Analysis in the Department of Homeland Security. How long have 
you been in that job now, General?
    General Taylor. Four months, sir.
    Chairman Carper. Four months, good. In this role he 
provides the Secretary, DHS leadership, DHS components, and 
State, local, tribal, and private sector partners with the 
homeland security intelligence and information they need to 
keep our country safe, secure, and resilient. General Taylor 
came to DHS with 31 years of service in the U.S. Air Force, 4 
years in the State Department as Counterterrorism Coordinator 
and as the Assistant Secretary for Diplomatic Security, and 8 
years as vice president at General Electric.
    The second witness is Suzanne Spaulding, the Under 
Secretary for National Protection and Programs Directorate 
(NPPD) at the Department of Homeland Security. As Under 
Secretary, one of her responsibilities is coordinating and 
overseeing policy and operation for the Department's 
infrastructure protection activities, including cybersecurity. 
Ms. Spaulding has spent more than 25 years working on national 
security issues in Congress, in the Executive Branch, and in 
the private sector. This includes extensive experience working 
with many critical infrastructure sectors. Welcome.
    Our next witness is Nick Rasmussen, Deputy Director of the 
National Counterterrorism Center for the Office of the Director 
of National Intelligence. Mr. Rasmussen has also served on the 
National Security Council where he was responsible for 
providing staff support to the President, the National Security 
Adviser, and the Homeland Security Adviser on counterterrorism 
policy and strategy. Prior to this he served in a variety of 
key positions for the Department of State where he provided 
support for the Arab-Israeli peace process, the U.S.-North 
Korean Agreed Framework, and Persian Gulf security issues. 
Nick, welcome this morning.
    And our final witness is Robert Anderson, Executive 
Assistant Director of the Criminal, Cyber, Response, and 
Services Branch of the Federal Bureau of Investigation. In this 
position Mr. Anderson oversees all FBI criminal and cyber 
investigations worldwide, international operations, critical 
incident response, and victim assistance. During the 20 years 
that he has worked at the FBI, Mr. Anderson has served in the 
Hostage Rescue Team, Counterintelligence Division, and the 
Intelligence Division as well.
    What did you do before you were part of the FBI?
    Mr. Anderson. Sir, I was a Delaware State trooper for 
almost 9 years.
    Chairman Carper. No kidding. Were you any good?
    Mr. Anderson. I hope so.
    Chairman Carper. Were you ever Trooper of the Year?
    Mr. Anderson. Yes, sir, I was, in 1989.
    Chairman Carper. OK. That is pretty good. We remember you 
fondly.
    Senator Coburn. Did you ever escort the former Governor of 
Delaware?
    Chairman Carper. He pulled me over. [Laughter.]
    He pulled me over a time or two. And as I recall, one other 
time fired a warning shot. [Laughter.]
    No damage was done. Great to see you, and thanks for what 
you did for us back in Delaware and what you are doing for your 
country now.
    Thank you all for your service. Your entire testimonies 
will be made part of the record, and we would ask you to try to 
give your testimony in about 5 minutes. If you go way over 
that, we will pull you in.
    All right. General Taylor, feel like leading us off?

  TESTIMONY OF HON. FRANCIS X. TAYLOR,\1\ UNDER SECRETARY FOR 
    INTELLIGENCE AND ANALYSIS, U.S. DEPARTMENT OF HOMELAND 
   SECURITY; AND HON. SUZANNE E. SPAULDING, UNDER SECRETARY, 
 NATIONAL PROTECTION AND PROGRAMS DIRECTORATE, U.S. DEPARTMENT 
                      OF HOMELAND SECURITY

    General Taylor. Yes, sir. Thank you, Chairman Carper, 
Ranking Member Coburn, distinguished Members of the Committee. 
Thank you for the opportunity to appear before you today to 
discuss threats to the homeland and the current threat 
environment. I am mindful that tomorrow is September 11, and I 
vividly remember where I was on that day 13 years ago, sitting 
at the State Department as the coordinator for 
counterterrorism.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Mr. Taylor and Ms. Spaulding 
appears in the Appendix on page 38.
---------------------------------------------------------------------------
    What has changed since 2001? Are we any safer now? These 
are questions that have been repeated countless times since 
that tragic day, and rightfully so. I come before the Committee 
today to outline the lessons we have learned since September 
11, 2001, and how we are now postured to address evolving 
threats in ways that we were not on September 10, 2001.
    The lesson we have learned from September 11, 2001 is the 
need to develop an agile homeland security enterprise that 
constantly collaborates and shares information and 
intelligence, to identify threats and risks, and to adjust 
operations as necessary to address the range of challenges the 
Nation faces.
    The partners within the homeland security enterprise, 
whether they are first responders at the local level of 
decisionmakers in capital cities across America or here in our 
Nation's capital, require predictive intelligence and 
analytical products that help them to make informed decisions 
to protect our citizens.
    The cornerstone of our mission at DHS has always been, and 
remains, protecting the Nation against terrorist attacks. In 
fact, Secretary Johnson just yesterday reiterated that 
counterterrorism is our most important mission at DHS. We are 
vigilant in detecting and preventing terrorist threats that may 
seek to penetrate the homeland from land, sea, or air. I will 
first address the current terrorist environment and then 
discuss threats to our efforts as they relate to each of the 
Secretary's four priorities. And, Mr. Chairman, mindful of the 
time limit, I will submit other remarks for the record and 
summarize just a couple of things.
    First, on terrorism, Core al-Qaeda, al-Qaeda in the Arabian 
Peninsula (AQAP), and their affiliates remain a major concern 
for the Department of Homeland Security. Despite senior 
leadership deaths, the groups maintain the intent and 
capability to conduct attacks against U.S. citizens and 
facilities, and have demonstrated the ability to adjust their 
tactics, techniques, and procedures for targeting the West in 
innovative ways.
    The Islamic State of Iraq and the Levant (ISIL) is a 
terrorist group operating as if it were a military 
organization, and their experience and successes on the 
battlefields of Syria and Iraq have armed them with 
capabilities most terrorist groups do not possess. At present, 
DHS is unaware of any specific, credible threat to the U.S. 
homeland from ISIL. However, we recognize that ISIL constitutes 
an active and serious threat within the region and could 
attempt attacks on U.S. targets overseas with little or no 
warning.
    ISIL exhibits a very sophisticated propaganda capability, 
disseminating high-quality media content on multiple online 
platforms, including social media, to enhance its appeal. Media 
accounts of the conflict, and the propaganda in particular, 
play a role in inspiring U.S. citizens to travel to Syria. We 
are aware that a number of persons--more than 100--have either 
made their way or tried to make their way to Syria over the 
past few years to join the international foreign fighters.
    I will conclude that AQAP has attempted three times to 
attack the U.S. homeland. The airliner plot of December 2009, 
an attempt against the U.S.-bound cargo planes in October 2010, 
and an airline plot in May 2012 demonstrate their efforts to 
adapt to aviation security procedures and underscore why 
aviation security is a priority area outlined by Secretary 
Johnson.
    In response to these recent threats, generally from 
overseas, over the past few months, DHS has taken steps to 
enhance aviation security at overseas airports with direct 
flights to the United States. And other nations have followed 
suit with similar enhancements.
    Mr. Chairman, I will conclude my remarks, and if you would, 
allow me to submit the rest of them for the record.
    Chairman Carper. Without objection, your entire statement 
will be made part of the record. Thank you, General.
    Ms. Spaulding, great to see you. Please proceed.
    Ms. Spaulding. Thank you, Chairman, Ranking Member Coburn, 
distinguished Members of the Committee. Thank you for this 
opportunity to be here today. I am particularly pleased to be 
here today with my colleague, Under Secretary Taylor, and with 
our partners from the Federal Bureau of Investigation and the 
National Counterterrorism Center.
    Under Secretary Taylor spoke with you about a range of 
threats that the Department is focused on, and I am going to 
amplify a bit with regard to the threat to cybersecurity and to 
discuss the actions that we are taking with our critical 
infrastructure partners to understand and address these 
threats, both physical and cyber, through information sharing 
and capability building.
    First, however, I also want to note, as we approach this 
13th anniversary of the attacks of September 11, 2001, three 
efforts that we have underway to heighten public vigilance and 
public awareness. This month, September, is National 
Preparedness Month. October is National Cybersecurity Awareness 
Month in which we focus on enhancing the resilience of this 
Nation against cyber threats. And November is Critical 
Infrastructure Security and Resilience Month. All three of 
these are key mission areas for the Department, and all require 
daily collaboration with our stakeholders in the private sector 
and government at all levels.
    Growing cyber threats are an increasing risk to critical 
infrastructure, to our economy, and to our national security. 
DHS uses cybersecurity information to reduce risk, to detect 
and block cyber attacks on Federal civilian agencies, to help 
critical infrastructure entities improve their own protection, 
and also to use the information that we develop collaboratively 
to protect their customers; and we maintain a trusted 
environment for the private sector partners to collaborate on 
cybersecurity threats and trends. This trust is based in large 
part on our commitment to privacy, civil rights, and civil 
liberties across all information-sharing programs, with a 
particular emphasis on safeguarding personally identifiable 
information.
    So far this year, DHS' 24x7 cyber operations center, the 
National Cybersecurity and Communications Integration Center 
(NCCIC), has processed over 600,000 cyber incidents, issues 
more than 10,000 actionable alerts, detected more than 55,000 
vulnerabilities, and dispatched over 78 incident response teams 
for onsite technical assistance.
    Let me tell you about one recent success. Within the last 
few weeks, the United States Secret Service shared information 
on some malware with our Cybersecurity Ops Center for analysis. 
The results of that analysis formed the basis for an actionable 
alert that was distributed widely to our critical 
infrastructure owners and operators and led U.S. businesses to 
check their systems for this malware and identify and stop 
ongoing cyber intrusions, thereby protecting their customers' 
data.
    While both the cybersecurity threat and the Nation's 
dependence on cyber infrastructure has grown exponentially, the 
legal framework, particularly regarding the articulation of the 
Department's authorities, has not kept pace. As the Chairman 
and the Ranking Member have noted, legislative action is vital.
    Both the House and the Senate have made real progress on 
cybersecurity legislation. I would like to personally thank 
this Committee for all of its hard work that has ensured 
progress on this front on a bipartisan basis.
    But we are not over the finish line yet. As Secretary 
Johnson wrote today, there are areas of legislation with strong 
consensus: codifying the cybersecurity responsibilities of the 
Department of Homeland Security, making it easier for DHS and 
the private sector to work together to mitigate cyber-related 
vulnerabilities, and enhancing the Department's ability to 
recruit and retain that essential cybersecurity workforce. 
These authorities are vital to ensuring that the Department has 
the tools it needs to carry out its mission on behalf of the 
Nation.
    While deliberations continue on other elements of 
cybersecurity legislation, we should not wait to pass 
bipartisan and broadly supported bills. You have come so far, 
and the threat is so great. I urge Congress to pass what it can 
now, even as we continue to work hard on remaining provisions.
    Let me close by emphasizing that DHS' mission to strengthen 
the security and resilience of critical infrastructure requires 
us to focus on physical risks to that infrastructure as well as 
cyber risks. Because the majority of the Nation's critical 
infrastructure is owned and operated by the private sector, DHS 
works with those partners, primarily on a voluntary basis, to 
understand the range of threats and hazards, share information, 
and promote training and other capability building.
    DHS and the Department of Energy, along with other 
interagency partners, for example, provide classified and 
unclassified threat briefings--we do this on a regular basis--
to energy Chief Executive Officers (CEOs) and industry 
executives on physical and cyber threats.
    In the wake of the terrorist attack on the shopping mall in 
Nairobi, Kenya, DHS and the FBI engaged more than 400 major 
malls across the United States to facilitate tabletop exercises 
based on a similar attack involving active shooters and the use 
of improvised explosive devices (IEDs). Working collaboratively 
with our partners in the private sector, we are advancing our 
core mission of strengthening the security and resilience of 
our Nation's critical infrastructure against cyber and physical 
threats.
    Chairman Carper, Ranking Member Coburn, thank you for this 
opportunity to testify today, and I look forward to taking your 
questions.
    Chairman Carper. Thank you. Thank you very much, Suzanne. 
We look forward to asking a few of them, too.
    Mr. Rasmussen, welcome aboard. Please proceed.

    TESTIMONY OF NICHOLAS J. RASMUSSEN,\1\ DEPUTY DIRECTOR, 
  NATIONAL COUNTERTERRORISM CENTER, OFFICE OF THE DIRECTOR OF 
                     NATIONAL INTELLIGENCE

    Mr. Rasmussen. Thank you, Chairman Carper, thank you, 
Ranking Member Coburn, and the Members of the Committee for the 
opportunity to testify here today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Rasmussen appears in the Appendix 
on page 47.
---------------------------------------------------------------------------
    NCTC Director Matt Olsen and I do not often testify in open 
hearings, and so today is an important opportunity, we believe, 
to share our understanding of what we see as an evolving, 
dynamic terrorist threat, and to share that understanding with 
the Committee and with the American public. Indeed, earlier in 
the summer, the 9/11 Commissioners challenged national security 
leaders to communicate more regularly with the American public 
about the threat, and we hope to do just that.
    As I begin this morning, I would like to frame this 
evolving threat in broad terms that are generally applicable 
across the broad sweep of groups, of individual groups and 
terrorist networks. The threat from terrorist groups that we 
see today is geographically diffuse, from a diverse array of 
actors, and it is proving over time to be both resilient and 
adaptive to the counterterrorism pressure we are putting on it.
    The global jihadist movement continues to increasingly 
decentralize itself, both in terms of geography and in terms of 
command and control. Geographically speaking, it is no longer 
generally confined to the Afghanistan-Pakistan-South Asia 
region. It now covers a broad swath of territory from the 
Indian subcontinent, across the whole entire Middle East and 
the Levant, and throughout northern Africa and western Africa 
as well.
    Of greatest concern are the terrorist groups such as ISIL 
that have taken a foothold in areas where governance is lax, 
where governments are unable to govern, and where lax security 
has allowed groups to coalesce, train, and plot.
    In terms of command and control, we also see a trend of 
decentralization, with the emir of an al-Qaeda affiliate, AQAP, 
now serving as the general deputy to al-Qaeda leader Ayman al-
Zawahiri.
    Additionally, that al-Qaeda Core is increasingly 
encouraging groups and individuals to act independently in 
support of the global movement, with no longer holding an 
expectation that regional affiliates will discuss or clear 
their operational plans with al-Qaeda senior leadership prior 
to execution. And this evolution is the result of an adaptive 
enemy.
    Our counterterrorism operations continue to degrade al-
Qaeda's core ability to lead the global terrorist movement and 
to plan sophisticated attacks from its place in the Fatah. But 
as a result of leaks and disclosures, including those 
attributable to Edward Snowden, terrorists now understand the 
scope and scale of Western collection capabilities, and they 
are changing the way they communicate. They are adopting 
encryption technologies. They are shifting accounts or avoiding 
altogether the use of electronic communications, all of which 
frustrate our counterterrorism efforts. In short, we cannot 
connect the dots if we cannot collect the dots that matter the 
most, and our collection is challenged in this new environment.
    In the remaining time, Mr. Chairman, I would like to focus 
on three specific areas: the threat from ISIL, the threat of 
AQAP, and the threat we face from homegrown violent extremists 
(HVE).
    Starting with ISIL, the greatest threat from ISIL to the 
United States and its interests is inside Iraq right now, 
which, combined with Syria, constitutes ISIL's power center. As 
we move further from that base of strength, ISIL's ability at 
present to develop and execute significant, large-scale, 
sophisticated attacks diminishes. This is not to say it does 
not pose a threat outside the region. It certainly does. 
Indeed, the arrest in France of an individual and the 
subsequent discovery of explosive devices in his possession, as 
well as the killing of four individuals as a Jewish museum in 
Belgium provide clear evidence and indication of ISIL's 
ambition to operate outside the Middle East. Both of the 
responsible individuals, apprehended in Europe, who are in 
custody, reportedly fought alongside ISIL elements in the 
Middle East.
    However, these examples also demonstrate that right now 
ISIL's ability to carry out complex, large-scale attacks in the 
West is currently limited. Left unchecked, however, that 
capability is likely to grow and present a much more direct 
threat to the homeland.
    And with over 2,000 Westerners now believed to be fighting 
in Syria and Iraq, we assess that the threat to Europe is 
perhaps even more immediate. But, nevertheless, the United 
States is not immune, as both the Chairman and the Ranking 
Member noted.
    Over 100 persons from a variety of backgrounds and from all 
across the country have traveled or attempted to travel or 
somehow indicated intent to travel to the region, including 
some who have looked to engage with ISIL. Most of these 
individuals are known or believed to have Western travel 
documentation that would ease their re-entry into the United 
States or into other countries, which is why identifying them 
is a top priority for the United States and our partners.
    That is why it is so important that the international 
community challenge ISIL's regional ambitions now, degrade 
their capabilities, and over time work together to defeat and 
destroy ISIL. Left unchecked, ISIL poses an increasing threat 
to all governments it considers apostate, not just to the 
United States or European nations, but also Middle Eastern, 
South Asian, and African nations as well.
    Let me quickly turn to al-Qaeda in the Arabian Peninsula. 
We continue to assess that AQAP remains the al-Qaeda affiliate 
most likely to attempt transnational attacks against the United 
States. The group's repeated efforts to conceal explosive 
devices to destroy aircraft demonstrate its continued pursuit 
of high-profile attacks against the West, its increasing 
awareness of Western security procedures, and their efforts to 
adapt to those procedures that we adopt.
    The group also continues to present a high threat to U.S. 
personnel and facilities inside Yemen and Saudi Arabia, and at 
any one time we are tracking several plots to our interests 
inside Yemen and inside the Arabian Peninsula hatched by al-
Qaeda in the Arabian Peninsula.
    The group also continues, as the Committee well knows, its 
efforts to radicalize and mobilize individuals outside Yemen 
through the use of Inspire Magazine, their English language 
publication. The most recent issue, its 12th issue of Inspire, 
was released back in March, and it continued to encourage lone 
wolf or lone offender attacks on the West, citing specific 
targets in the United States, the U.K., and France.
    Let me also say a few quick words about homegrown violent 
extremists. The boundless online virtual environment we see 
today combined with terrorists' increasingly sophisticated use 
of social media makes it increasingly difficult for us to 
protect our youth from messaging that is designed to radicalize 
and motivate to action homegrown violent extremists. We at NCTC 
are working very closely with our partners at DHS, at FBI, and 
the Department of Justice to inform and equip families, 
communities, local governments, and local institutions, all of 
whom provide the best offense and have the greatest ability to 
counter the narrative of violent extremism in their 
communities.
    Despite our efforts, however, HVEs remain the most likely 
immediate threat to the homeland, individual action by 
individual HVEs. We expect the overall level of HVE activity to 
remain about the same as what we have seen in recent years over 
the course of the next year, and by that I mean we would expect 
to see a handful of uncoordinated and mostly unsophisticated 
plots emanating from a pool of HVEs that amounts up to a few 
hundred individuals.
    Last year's Boston bombing certainly underscored the threat 
from HVEs who were motivated, often with little or no warning, 
to act violently by themselves or in small groups. And as we 
have discussed with this Committee, these lone actors who act 
autonomously are the most difficult to detect or disrupt.
    Mr. Chairman, during your April 30 hearing, you noted that 
identifying and deterring terrorist plots by lone wolves was 
extremely challenging to the counterterrorism and homeland 
security community, and I think everybody here would agree with 
that assessment.
    Last, let me take one moment to talk about just one of our 
efforts at NCTC to counter the array of threats I have just 
outlined, and that is through identifying it more precisely, by 
putting a face and a name to that threat whenever possible. As 
you know, under the law, NCTC is charged with maintaining the 
United States Government's central and shared knowledge bank of 
known and suspected terrorists as well as their contacts and 
their support networks.
    NCTC's Terrorist Identities Datamart Environment (TIDE), is 
our database of known and suspected international terrorists, 
and it helps us ensure that all relevant information collected 
by the government about identified individuals, including 
individuals who we have identified as Syrian foreign fighters. 
All that information is shared with appropriate intelligence, 
law enforcement, and screening agencies. We are absolutely 
relentless in the efforts to ensure that the data in TIDE is as 
accurate as possible, that it is entered accurately, and that 
our records are as comprehensive as they can possibly be. And 
we are mindful of privacy and civil liberties concerns, 
particularly with respect to U.S. persons.
    In the case of U.S. persons, any nomination to TIDE goes 
through at least four layers of review, including a legal level 
of review, to ensure that the underlying derogatory information 
is sufficient and meets established legal standards.
    Our management at NCTC of this unique consolidation of 
terrorist identities has created a valuable forum for 
identifying and sharing information with our partners in the 
community, and it has better integrated our collective efforts 
to identify, enhance, and expedite the nomination of 
individuals we assess to be Syrian foreign fighters and get 
their names and their identities into the screening system. And 
this work greatly increases the chances that we will be able to 
disrupt potential terrorist activity by individuals as they 
seek to return from Syria.
    In closing, Mr. Chairman and Members of the Committee, we 
face an evolving, decentralized threat from a diffuse set of 
actors who are adapting constantly to our countermeasures. That 
is why NCTC and our partners within the intelligence community 
(IC) must ourselves continue to adapt to this threat, operating 
within the bounds of our existing authorities and resources. We 
certainly appreciate the Committee's continued strong support 
in these efforts, and I would encourage Senators to visit NCTC 
to see firsthand the breadth of the work we are doing with our 
counterterrorism partners.
    Mr. Chairman, we had the honor of hosting you and several 
of the Committee staff in recent weeks out at NCTC to talk in 
great detail about some of those threats, and it was very 
gratifying to see your interest in the work we are doing, along 
with the FBI and DHS.
    Thank you again for this opportunity.
    Chairman Carper. Thank you. And can I mention that Dr. 
Coburn and I not only enjoyed being with you and having a 
chance to personally meet many of the folks who work there, but 
to thank them for their service. It was informative for me and, 
frankly, quite encouraging. So thanks for that.
    Mr. Anderson, it is great to see you. Welcome. Please 
proceed.

   TESTIMONY OF ROBERT ANDERSON, JR.,\1\ EXECUTIVE ASSISTANT 
   DIRECTOR, CRIMINAL, CYBER, RESPONSE, AND SERVICES BRANCH, 
  FEDERAL BUREAU OF INVESTIGATION, U.S. DEPARTMENT OF JUSTICE

    Mr. Anderson. Thank you, Mr. Chairman, Ranking Member Dr. 
Coburn, and Members of the Committee. Thanks for the 
opportunity to be here today to talk to you about the cyber and 
terrorism threats to our Nation and how we are working together 
with our partners to prevent and combat them.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Anderson appears in the Appendix 
on page 57.
---------------------------------------------------------------------------
    In my role as the Executive Assistant Director of the FBI, 
as the Chairman said, I manage multiple divisions within the 
FBI, but the two I am going to concentrate on the most today is 
the criminal and the cyber program.
    As the Committee knows, the number of sophisticated cyber 
attacks against our Nation's network have increased 
dramatically over the recent years. We truly expect them to 
continue to climb and grow. I could break down the threats to 
our country in four broad categories from cyber: spies, 
transnational organized criminals, terrorists, and hactivist 
groups.
    The bottom line is we are losing a lot of data, money, 
ideas, and innovation to a wide range of cyber adversaries. FBI 
Director Comey has recognized this, and the severity of the 
threat has made cyber one of the No. 1 top priorities in the 
FBI. Under his leadership, the FBI is continuing to strengthen 
our cyber capabilities in the same way we enhanced our 
intelligence and national security capabilities in the wake of 
September 11, 2001.
    Today's FBI is a national security and law enforcement 
organization that uses intelligence to prevent and respond to 
all types of threats. We constantly seek to understand the 
threats we face in each of our offices, both here and abroad, 
what is out there, what we see, and what we might be missing.
    We know that to effectively combat the cyber threat, we 
must continue to expand our partnerships both in government and 
in the private sector. In fact, we expect Director Comey and 
DHS Secretary Johnson will soon sign a new cyber unified 
message for State and local law enforcement. This message makes 
clear that Federal agencies are working together to ensure that 
a call to one is a call to all when law enforcement partners 
report information on a cyber attack or incident.
    Also, for our law enforcement partners, we launched the 
Cyber Shield Alliance, an online, one-stop shop to provide 
cyber training as well as the ability to report cyber incidents 
to the FBI.
    Earlier this month, we deployed a malware repository and 
analysis system known as Malware Investigator. It allows our 
intelligence and law enforcement partners to submit malware 
directly to the FBI, and we share with our partners for triage 
and analysis of what is going on in cyber.
    We are also significantly enhancing our collaboration with 
the private sector. In the past, industry has provided us 
information about attacks. We have investigated them, but we 
really did not share or provide that information back. Now we 
are.
    As part of our enhanced outreach, we have provided nearly 
40 classified sector-specific threat briefings to private 
companies over the past year alone. Over the past several 
months, the FBI and the Department of Justice (DOJ), along with 
many partners both at this table and abroad, have announced a 
series of indictments of cyber criminals. Just to name a few: 
Encore Performance, which was obviously the indictment of the 
five People's Liberation Army (PLA) Chinese hackers; 
Blackshades, a remote access computer software that could steal 
and infect hundreds of thousands of computers around the world. 
We are calling these indictments ``the new normal'' because we 
expect them to continue on a regular basis.
    While the cyber threat is one of the FBI's highest 
priorities, combating terrorism continues to be the No. 1 
priority in the FBI. As conflict zones continue to emerge 
throughout many parts of our world, we expect terrorist groups 
to use this instability to recruit and incite acts of violence.
    Syria remains a major concern as the ongoing conflict shows 
no sign of subsiding. Due to the prolonged nature and the high 
visibility of the Syrian conflict, we are concerned that U.S. 
persons with an interest in committing jihad will be drawn to 
that region of the world. We can address these issues much more 
fulsomely in the closed session that follows this session, and 
we look forward to doing that.
    In conclusion, Mr. Chairman, to counter the threats we 
face, we are engaging in an unprecedented level of 
collaboration within the U.S. Government and with our private 
sectors around the world and with the international law 
enforcement organizations that we each at this table talk to 
every day. We look forward to continuing to expand these 
partnerships and to work with the Committee to defeat our cyber 
and terrorist adversaries.
    Thank you again very much for the opportunity to be here 
today. I would be happy to answer any questions you or the 
Committee may have. Thank you.
    Chairman Carper. Mr. Anderson, thanks so much. Great to see 
you. Thanks so much for joining us today.
    The first question from me would be for perhaps Mr. 
Rasmussen or General Taylor. One of the recurring themes in my 
life is find out what works and do more of that. And I just 
want to play off of that for a moment.
    Go back about 7 years ago, Iraq, Sunni Awakening, and the 
predecessor to ISIS was rolling along pretty well, and then not 
so much. And under the enlightened leadership of General 
Petraeus, I think the good work done by the fellow who has just 
become the new Prime Minister of Iraq, working with the Sunni 
tribal leaders, al-Qaeda in Iraq, the progress just stopped and 
was greatly diminished, pushed back.
    What can we gain from that lesson? Is there anything there 
that can inform what we do today?
    Mr. Rasmussen. Mr. Chairman, one of the things we have 
tried to do as we have tried to think about the problem and the 
threat posed by ISIL is to think of potential vulnerabilities 
that the group has and to think of ways in which the progress 
that they have made can be addressed. And you point to some of 
the lessons that we may be able to learn from previous efforts 
against al-Qaeda in Iraq, and there I think we did learn that 
the group very much struggled to gain legitimacy across the 
broader population of Iraq when that population in Iraq saw in 
Baghdad a representative government that was responsive to 
their needs. And so the ongoing transition in Baghdad that you 
are seeing right now that you just alluded to I think is an 
important step in potentially giving the Sunni population in 
Iraq a signal that they do not have to turn or align or ally 
with ISIL in order to have their issues addressed, to feel that 
they are represented, that their interests are protected inside 
Iraq.
    So that is an important lesson learned. I think it is one 
where we have seen progress in the last few weeks. But only 
over time will we see if that kind of political transition 
actually has that effect that we are looking to see. I do not 
know that we can say yet how quickly that will happen, but it 
is something that I think was a necessary precondition to any 
strategy against ISIL.
    Chairman Carper. Thanks very much.
    General Taylor and maybe for you, Nick, one or both of you 
mentioned that the ability for ISIS to mount an effective 
attack against our homeland is limited, but it is not time for 
us to sit back and just assume it is not going to come, but for 
us to prepare and be ready for it. What are some ways that we 
can do, are doing, or should be doing to prepare for that 
eventuality and be better prepared for what should come? That 
would be for both of you. General Taylor, why don't you lead it 
off, and then we will give Nick some time as well, please.
    General Taylor. Certainly, sir. As I mentioned, we assessed 
the threat from ISIL primarily to be in the region. 
Nonetheless, with the number of Europeans and Americans that 
have gone to fight in Syria, that threat can manifest itself 
back either in Europe or in the United States. I think we have 
begun with the aviation security changes that we have made 
since July to make it more difficult for people to try to get 
explosives onto aircraft, to bring those aircraft down that 
could be traveling to the United States. We have increased our 
intelligence cooperation with our partners across the world in 
attempting to identify people who have gone to serve or to 
fight in Syria, because intelligence is the one thing that 
helps us identify these individuals before they are able to 
act, and using our intelligence systems to learn who they are 
makes us much more effective in interdicting them.
    And, third, I think the focus on Countering violent 
extremists (CVE), homegrown violent extremist, getting our 
communities aware of the risks----
    Chairman Carper. Thank you.
    General Taylor. As Nick mentioned, probably the most 
immediate threat comes from a homegrown violent extremist who 
listens to the propaganda, reads it, and decides that he or she 
is going to answer the call and take up arms here in the United 
States. And so community awareness, resilience around these 
issues with our law enforcement partners in the field so that 
they understand what those elements are and to look for them as 
they encounter folks in communities I think is a big step 
toward helping communities learn about this early so we can 
respond.
    Chairman Carper. OK. Thanks. Nick.
    Mr. Rasmussen. The only thing I would add, Mr. Chairman, 
are two things--one related to offense and one related to 
defense. I think if you are going to get ahead of ISIL's effort 
to over time develop a homeland threat capability, we have to 
over time shrink the safe haven and attack the safe haven 
inside Iraq. And that is something I know the President and the 
Secretary of State have already spoken about in talking to our 
foreign partners overseas, because absent that, the ability to 
bring additional Western potential operatives into Iraq or 
Syria into that safe haven and potentially train, equip, and 
deploy them back out to Europe and the United States will 
remain a threat.
    The more defensive piece of business that I think we are 
engaged in right now already and I think we are making good 
progress on is just aggressive information sharing with all of 
our foreign partners who face a similar problem. This is an 
issue we have been engaged in with them for going on 18 months 
now, engaging with our European partners, many of whom face 
this problem even more acutely than we do in terms of their 
citizens having an easier route and certainly easier path to 
travel to Syria and Iraq.
    Unlike a lot of situations where it is difficult to talk 
with partners about information sharing about individuals, this 
is a case where we are actually getting very little pushback. 
They share the same sense of threat, and so the information 
that we are able to share about individuals who have traveled 
to Syria or Iraq can be used to potentially add to our 
watchlisting and screening systems and give us a significant 
leg up in our effort to disrupt travel when those individuals 
seek to leave Syria and Iraq.
    That is not a fail-safe. It is by no means the only pillar 
of a defensive effort, but it is an important pillar, and it is 
one that is not always very easy to get our partners to work 
with us on. But in that case, that sense of shared threat is so 
widely shared at all levels in the governments that we 
typically work with in Europe that it is making that level of 
interchange much more robust than it often is.
    Chairman Carper. Thanks very much. My time has expired. 
When we come back, either for a next round or maybe in our 
closed session, Ms. Spaulding and Mr. Anderson, I want to visit 
the issue of information sharing and the sequencing of Foreign 
Intelligence Surveillance Act (FISA) reauthorization 
information sharing, either in the open session or the closed 
session. Dr. Coburn.
    Senator Coburn. Well, thank you. I hope the media that is 
here today actually listened to what you had to say, Nick, a 
very cogent, open assessment of where we are--not on the basis 
to scare people but on the basis to inform them of where we 
really are. I think the other thing that I would comment on is 
I am really happy to see the FBI being aggressive on deterrence 
because for so long we thought we could build a higher and 
higher wall that people cannot climb over. They are going to 
climb over every wall on cyber that we have. And we have to 
have both efforts. We have to have the wall, but we also have 
to have the prosecutorial deterrence that says you come at us, 
it is going to be painful.
    And so I am very thankful for that attitude coming from the 
FBI. I hope to see more and more and more, both domestically 
and internationally, because of the costs.
    General Taylor, let me just ask you a couple of questions. 
Has Intelligence and Analysis (I&A) produced any intelligence 
product examining the vulnerabilities in the Immigration and 
Customs Enforcement (ICE's) student exchange and visitors 
program, the visa program, and whether it poses a threat to 
national security?
    General Taylor. Yes, sir, we have. We have published 
several threat pieces to support the student visa program and 
the risk that comes from that particular program, working with 
ICE and with the Customs and Border Protection (CBP).
    Senator Coburn. And are those public, or are those 
classified?
    General Taylor. I believe they are classified, Senator 
Coburn, but I will check and get back to you.
    Senator Coburn. I will ask more questions about them in the 
closed hearing.
    It is reported that millions of people are living here on 
visa overstays. The Government Accountability Office (GAO) has 
found that DHS is really struggling to track this population. 
We understand that. Has I&A prepared any assessment of the 
threat from the population of visa overstays? Do you have 
anything that you have done on that?
    General Taylor. We have, sir. We have helped ICE to 
prioritize its focus on the visa overstays from a threat 
perspective and certainly can share that with you in the closed 
session.
    Senator Coburn. All right. CBP has been very cooperative, 
by the way. When we review the documents, what we see today is 
approximately 700 miles of our Southern border that are not 
secure. That is looking at the documents that you all give us. 
Can you all prepare a current assessment of the coverage of the 
border and the threat to national security posed by adversaries 
that potentially might transcend that border?
    General Taylor. Sir, if I understand your question, you are 
asking can we--or have we?
    Senator Coburn. I am asking you can you, given the basis of 
where we stand?
    General Taylor. Absolutely, yes, sir. I would also add, 
sir, that the Secretary has directed a comprehensive Southern 
border security strategy which will have an intelligence annex 
to it that will address what you have just described, the risks 
to the border and how we can better focus our efforts at 
securing those gaps that we identify exist.
    Senator Coburn. Do you have a timeline on that?
    General Taylor. He just approved it, at least the concept, 
and we are beginning to put meat on the bones. I cannot give 
you an exact date, but I will certainly have the staff check 
and get back with you.
    Senator Coburn. All right. Thank you.
    Mr. Anderson, does the FBI monitor cyber attacks against 
the Federal Government?
    Mr. Anderson. Yes, sir, we work to not only monitor cyber 
attacks around the world with the Federal Government but also 
the private sector.
    Senator Coburn. OK. Can you tell me which departments, 
major departments of the Federal Government, that have not been 
hacked?
    Mr. Anderson. I do not know if I could tell you that off 
the top of my head, sir. I would probably have to go back and 
look. I would say--and I think I agree with our current 
Director--that if they have not been hacked--I do not know if 
they have not been hacked or we have not realized that----
    Senator Coburn. They have all been hacked, yes. If you 
could go back and give us a list of what your records show?
    Mr. Anderson. Sure.
    Senator Coburn. And you can do that either in the secured 
setting or in an open session, but I would like to see what you 
all see on that. I mentioned the deterrence. I am really 
pleased with that because I think you have to have both sides 
of the sword working.
    The rest of my questions, I think, Mr. Chairman, are for 
the classified setting, so I will wait and ask those of Nick 
and Suzanne and others in the classified session.
    Chairman Carper. Thank you. And the order of joining us at 
the hearing: Senator Johnson, Senator McCain, Senator Baldwin, 
Senator Portman, and Senator Ayotte. Senator Johnson, you are 
recognized.

              OPENING STATEMENT OF SENATOR JOHNSON

    Senator Johnson. Thank you, Mr. Chairman. I would like to 
associate myself with Senator Coburn's comments about the need 
for us to face this reality, the need for the American people 
to be informed. It is not about scaring people. It is about 
facing reality.
    General Taylor, we started the hearing asking, Are we 
safer? I want to break that question down to two parts, because 
I think there are two parts to it. One is: Do we have greater 
defensive capability to keep us safe? But, then, has the threat 
grown?
    I just want your assessment of both of those. What is your 
assessment over the last 13 years in terms of our defensive 
capabilities? And, by the way, what is hampering our efforts? 
And then really your assessment of the growing threat.
    General Taylor. Thank you, Senator. As I mentioned, I was 
State Department Coordinator for Counterterrorism on September 
11, 2001, and was party to our efforts then and have watched 
the government change its approach to this. Indeed, I think our 
capacity to share information, to work together, is as good as 
it has ever been in the history of our country. We work every 
day with the FBI, with the NCTC, in gathering information and 
sharing data. So in that sense, I think our capacity is much 
more effective than it was 13 years ago. There is always room 
for improvement and change, but I think the leadership of the 
counterterrorism (CT) community of our government understands 
that if we do not cooperate, bad things will happen.
    I think the nature of the threat is--I think Nick probably 
characterized it best. On September 11, 2001, we were focused 
on al-Qaeda in Afghanistan and Pakistan. Today al-Qaeda, al-
Qaeda adherents, and other jihadists are essentially global. 
They are operating in North Africa. They are operating in the 
Middle East. They are operating in South Asia. So much more 
diverse. Nonetheless, they still see us as the enemy and, 
therefore, a threat to the United States and our operations 
around the world.
    Senator Johnson. Mr. Rasmussen, I believe the threat is 
growing. I think it is more grave. You had mentioned the effect 
of Edward Snowden's disclosures. Has that degraded our ability 
to protect ourselves? Has that degraded our intelligence-
gathering capabilities?
    Mr. Rasmussen. I would argue yes. I can talk in greater 
detail in a closed session about some of the specific 
information or indicators we have seen that would lead me to 
that conclusion. But I think it is inarguable that the 
collection environment we are in--and we rely on collection to 
be able to try to get ahead of terrorist plots. It is 
inarguable that that collection environment is more challenging 
today than it was if we had not been dealing with these 
disclosures.
    Senator Johnson. In a Foreign Relations Committee hearing, 
we had Deputy Assistant Secretary of State Brett McGurk, and I 
asked him directly: What threat does ISIS directly pose to the 
United States? He talked about the 30 to 50 suicide bombers 
funneling into Iraq that week. We had an Australian and a 
German suicide bomber set themselves off, I believe in Baghdad. 
We have seen the first American suicide bomber. I am concerned, 
the talk coming out of this Administration that this may take 3 
years.
    First, let me ask you: Do you believe ISIS is something 
that can be contained or managed versus destroyed?
    Mr. Rasmussen. I think of this in phases. I think in the 
near term, in the immediate term, you can take steps to degrade 
and disrupt their ability to carry out attacks. But to prevent 
yourself from having to deal with that in perpetuity, you have 
to go beyond that and look to destroy or defeat the 
organization, and that is what the Administration, the 
President, and the Secretary of State have talked about over a 
long period of time. That objective is not as easy to put a 
specific time horizon to.
    Senator Johnson. I understand, but I am concerned, kind of 
like having a hornet's nest in your backyard. You identify the 
threat; you want to get rid of it as quickly as possible. You 
do not want to poke it with a stick for 3 years. So, again, 
what I want to see is a clearly articulated goal of destroying 
ISIS as quickly as possible so that we can then maintain our 
defenses against the other threats that are metastasizing 
around the world. Would you basically agree with that 
assessment?
    Mr. Rasmussen. I certainly share that goal. I think the 
talk about the phasing is just simply a recognition that in 
order to build the intelligence basis necessary to attack and 
pull apart an organization and defeat it takes time.
    Senator Johnson. OK. I understand.
    Mr. Rasmussen. But while you are doing that, you try to put 
great pressure on the organization so that it cannot punch you 
in the process while you are going through that longer process.
    Senator Johnson. I think one thing we always have to guard 
against is always fighting the last war, only concentrating on 
past threats. To what extent is the intelligence community 
using our imagination in terms of looking at what other 
possibilities just might be out there?
    Mr. Rasmussen. We certainly are devoting time and attention 
to that. Again, pressures of the day often lead you to focus on 
what is the wolf closest to the door. And yet we also challenge 
our analysts and our intelligence community partners to look 
around the corner and see not only where the next groups might 
come from, where the next theaters of concern might be, but 
also what tactics and techniques and opportunities for 
innovation might exist in the terrorism community as well. That 
is harder and you are not often relying on much intelligence in 
that setting. You are often, as you say, using your 
imagination. But it is important work, and it helps us over 
time to target our collection to try to get ahead of those 
particular threats.
    Cyber is one of those areas where we have not seen 
terrorists necessarily develop great capability to date, but 
they certainly understand the economic impact that intervention 
in the cyber world causes. And so we assess that over time that 
is a capability terrorist groups----
    Senator Johnson. I want to cover that and explore that in 
the secured briefing a little bit.
    Secretary Spaulding, you talked about critical 
infrastructure. You talked about what our physical and cyber 
threats are. I want to talk about something that I have been 
now briefed on, the threat of Electro Magnetic Pulse (EMP), 
both in terms of a high-altitude nuclear blast, which is kind 
of what I always knew existed out there, and I guess kind of 
hoping that nobody has the capability or would not be stupid 
enough to do it, but now also aware of the fact that a massive 
solar flare also represents a real threat. That is something 
that you are certainly aware of. Is that something we are 
looking to harden our electrical grid against?
    Ms. Spaulding. Absolutely, Senator, and thank you for the 
question. It is certainly something that we have been focused 
on and working with our colleagues in the electric sector to 
find ways to address.
    I was recently in the U.K. at an international conference, 
an energy infrastructure security summit, where EMPs were a 
clear focus of those discussions. This is something very much 
on our radar screen and that we are working with them to 
address.
    Senator Johnson. OK. We will cover more of that. Just real 
quick, in terms of the--for Mr. Anderson, the attack at the 
Metcalf Pacific Gas and Electric (PG&E) substation, do we have 
any further information you can share in open session in terms 
of have we tracked down the perpetrators, have we come up with 
theories in terms of what that was all about?
    Mr. Anderson. We are heavily engaged in that investigation, 
Senator, and it would be easier to describe to you everything 
that we are doing inside the closed session.
    Senator Johnson. OK. Thank you, Mr. Chairman.
    Chairman Carper. Thank you. Senator McCain.

              OPENING STATEMENT OF SENATOR MCCAIN

    Senator McCain. Thank you, Mr. Chairman, and I thank the 
witnesses.
    Mr. Taylor or Mr. Rasmussen, haven't there been recent 
reports on Twitter and Facebook of messages that would urge 
infiltration into the United States across our Southwestern 
border?
    General Taylor. Yes, sir, there have been Twitter social 
media exchanges among ISIL adherents across the globe speaking 
about that as a possibility.
    Senator McCain. Would you view it as a threat?
    General Taylor. Certainly any infiltration across our 
border would be a threat, but in the course of our border 
security----
    Senator McCain. Are you satisfied that we have sufficient 
border security to prevent that?
    General Taylor. Sir, I am satisfied that we are trying to 
build a border security capability that would address that----
    Senator McCain. Are you satisfied that we now have the 
capability to prevent that?
    General Taylor. I am satisfied that we have the 
intelligence and the capability at our border that would 
prevent that activity.
    Senator McCain. Well, it is interesting, because an 
American reporter named James O'Keefe dressed as Osama bin 
Laden walked across the border, the Rio Grande River, 
undetected. Does something like that concern you?
    General Taylor. Actually, sir, he was not undetected. He 
was known to the border security agencies who saw him walk 
across.
    Senator McCain. Then why didn't they stop him when he came 
across?
    General Taylor. Sir, I cannot answer that question----
    Senator McCain. No, you cannot answer it because they were 
not there to stop him, and that is a matter of being on record.
    The fact is that there are thousands of people who are 
coming across our border who are undetected, who are not 
identified. And for you to sit there and tell me that we have 
the capability or now have the proper protections of our 
Southwestern border, particularly in light of the urgings over 
Facebook and Twitter for people to come across our Southwestern 
border, is of great concern to the citizens of my State. I 
would like to hear your response to that.
    General Taylor. Sir, the security at the Southwest border 
is of great concern to the Department, and certainly I 
understand the concerns of the citizens of your State. If I 
gave you the impression that I thought the border security was 
what it needed to be to protect against all the risks coming 
across the State, that is not what I intended to say.
    Senator McCain. Could you give to the Committee for the 
record what is required to achieve 90 percent effectiveness 
control of the border and prevent this threat from 
materializing? Because I do not think there is any doubt--I do 
not see when you look at ISIS and the growth and the influence 
of ISIS that it would be logical, as they are saying on 
Facebook and Twitter, to come across our Southwest border, 
because they can get across. And the flow of drugs across our 
Southwest border has not been decreased by any significant 
measure. Would you agree to that?
    General Taylor. The flow of drugs continues to be 
significant, yes, sir.
    Senator McCain. Well, those of us who strongly supported 
comprehensive immigration reform are deeply disappointed in our 
lack of devotion of assets and funds and capabilities to secure 
our Southwestern border, which has then created a credibility 
problem in our States and across this country that we can 
guarantee people, if we enacted comprehensive immigration 
reform, that there would not be another flow of refugees or 
illegal immigration into this country. Now we have this 
phenomenon or, I guess, occurrence of thousands of young 
children showing up at our border, not trying to sneak across 
but just showing up at our border. It has tailed off some, but 
it is still by the thousands. And isn't this diverting the 
assets and the capabilities of our Border Patrol by having to 
handle this incredible influx of children, diverting them from 
other duties like trying to interdict drug smugglers and 
others? And isn't it true, could I say to you--and it is really 
astonishing to me how our friends on the left and those who are 
``pro-immigration'' ignore the fact that the brutalities that 
are inflicted on these young people, particularly young women, 
as they are brought across by these coyotes is absolutely 
abhorrent and unspeakable. Would you agree with that?
    General Taylor. Absolutely, Senator, I would agree with it. 
And to your earlier question, we not only assess, we believe 
the Border Patrol has done an absolutely remarkable job in 
handling the unaccompanied alien children (UAC) crisis, and----
    Senator McCain. But they have been diverted, right?
    General Taylor. It has been a priority, given the number of 
people at our border, to focus on that issue, and certainly 
with the resources as they are, resources are shifted to 
priorities.
    Senator McCain. So it has always been a national security 
issue, but I believe that in light of the growth of ISIS and 
the aggressiveness of ISIS and the information that they have 
been able to recruit in the United States of America--we know 
that because Americans have been killed over there--that it 
seems to me it dramatically heightens our requirement to have a 
secure Southern and Northern border. Would you agree with that?
    General Taylor. I absolutely agree with it, Senator.
    Senator McCain. Thank you. And finally, Mr. Rasmussen, it 
is entertaining to me that it is like it all just happened with 
ISIS, another wolf at the door. We have known about ISIS for 4 
years. People like me and Lindsey Graham and many others have 
known about it and warned about it and talked about it, while 
we have done nothing to really stem the tide and the growth of 
ISIS and the chaos that we now see pervading Iraq and Syria. 
Some of us are hopeful that the President of the United States 
will finally recognize that threat and outline to the American 
people some actions that need to be taken. But many of us 
predicted this, many saw it coming, and it comes as no 
surprise.
    I thank you, Mr. Chairman.
    Chairman Carper. You are welcome. We thank you as well.
    Senator Baldwin, and then Senator Portman, and Senator 
Ayotte. Senator Baldwin.

              OPENING STATEMENT OF SENATOR BALDWIN

    Senator Baldwin. Thank you, Mr. Chairman.
    Mr. Taylor and Mr. Rasmussen, I want to talk a little bit 
more about the estimated more than 100 U.S. persons who have 
left to join the fight in Syria. I think that is how it was 
phrased. And I just want to get a sense of, is this an estimate 
or do we have a sense of actually who these 100-plus people 
are, names, where they are from, et cetera? How much detail do 
we have? Or are we basically just estimating that it is about 
100?
    Mr. Rasmussen. I will take a stab at that, Senator. That 
number is actually meant to capture a number of categories of 
individuals who have shown an intent to travel and that travel 
has not happened, individuals who have traveled, individuals 
who have traveled and come back, individuals who have traveled 
and perhaps been killed in the fighting over there. And so that 
number is somewhat all encompassing and does not necessarily 
reflect an estimate of who is exactly there right now today.
    There is more we can say with greater precision in the 
closed session, but I think I can reassure you there is some 
significant detail behind that broad number.
    Senator Baldwin. Great. I am going to try to ask a couple 
more questions in open session on this topic. We will see how 
far we can get.
    With regard to that number, is there differentiation, very 
specific differentiation, between those who are actually 
joining ISIL and those, for example--I traveled to Turkey now 
over a year ago, but there were certainly American citizens of 
Syrian descent who were there trying to provide humanitarian 
relief in the fight or trying to do what they could to help the 
moderate rebels, the moderate elements, try to participate in 
battle there. Are we differentiating between those when we talk 
about these rough numbers?
    Mr. Rasmussen. Yes, we are. As I said, we are----
    Senator Baldwin. OK.
    Mr. Rasmussen. And in some cases, we know of individuals 
who have indicated intent or have traveled to Syria who go over 
not necessarily knowing who they will affiliate with when they 
get there. They simply look to join the fight from an extremist 
or jihadist perspective, and where they actually end up 
affiliating plays out over time, and we may or may not have 
intelligence on that. But you are right, the number of 
individuals who have traveled to Syria can capture people who 
engage in a wide variety of activities there.
    Senator Baldwin. But that 100 or whatever we are tossing 
around, over 100, you believe are engaged in the battle with 
the ISIL extremists?
    Mr. Rasmussen. With extremist elements. I want to be 
careful and not pin it----
    Senator Baldwin. I understand.
    Mr. Rasmussen [continuing]. Strictly to ISIL because, as 
you know, there are a number of organizations----
    Senator Baldwin. Right.
    Mr. Rasmussen [continuing]. Over there, al-Nusra Front----
    Senator Baldwin. And I am getting there, too. Before I get 
to that second point, do we have a sense that, in particular, 
our European allies have as granular information on their 
citizens who have traveled to Syria as we do on ours?
    Mr. Rasmussen. I think it is not a constant picture across 
the whole of Europe. I think in some cases, with some of our 
partners with whom we work the most closely, the answer is 
absolutely yes. They have a very detailed understanding of 
individuals, and, in fact, they have done a great deal of work 
talking to in many cases individuals who have come back from 
Syria in order to try to understand both the appeal and the 
draw, but also the experiences those individuals had and how 
they may play--what contribution to the threat picture back in 
their homes that they may present. And I know that a 
significant amount of law enforcement effort in the United 
Kingdom, for example, is devoted to just that effort.
    But I would not argue that this is constant across the 
whole of Europe. In many of the particularly Southern and 
Eastern European partners which are closer to the front line of 
travel to Turkey and Syria, their capabilities just simply are 
not as well developed, they are not as well resourced to handle 
a large national security challenge like this in the way that 
some of our more traditional partners are.
    But as I pointed out in my statement, there is a bit of a 
good-news story in that the willingness to at least lock arms 
with us and share information is something we have seen pretty 
constantly across the board.
    Chairman Carper. Senator Baldwin, just to interrupt for a 
second, Senator Coburn as a member of the Intel Committee just 
shared with me a cautionary note. You will have a good feeling 
for what is appropriate to say in an open setting and what is 
more appropriate to say in a closed setting, again, if you ask 
questions that you think should be deferred to the next part of 
our hearing, please do that. Go right ahead.
    Senator Baldwin. So do we have a sense of how many U.S. 
nationals are engaged with al-Qaeda globally, and obviously 
there is a much greater fragmentation and even in particular 
al-Qaeda in the Arabian Peninsula? Do we have that same sort of 
granular information there?
    Mr. Rasmussen. Again, I think it varies depending on which 
al-Qaeda affiliate group you are talking about, and we can 
certainly talk about specific cases involving specific known 
individuals in another setting.
    Senator Baldwin. OK. And then can you describe in open 
session for the Committee what we know, what our intelligence 
has said about the relationship between ISIL and al-Qaeda? Is 
it a rivalry? Is it cooperative? Are they rooting each other 
on? What do we know at this point about their relationship?
    Mr. Rasmussen. Well, one of the things that I think has 
been a development that we have spent a great deal of time 
trying to understand and assess is the degree of conflict 
intention between ISIL and Core al-Qaeda leadership, as I said, 
resident in the Fatah. And I think what you could argue now you 
are seeing, in a sense, a contest or a competition for primacy 
in that overall effort to lead the global jihad, with ISIL 
increasingly posturing itself as the legitimate follow-on or 
heir to Osama bin Laden and the al-Qaeda vision. And what that 
is also doing is causing, I would argue, intellectual ferment 
in that broader jihadist community around the world--we see 
this in other al-Qaeda affiliates--as they seek to decide for 
themselves, Do we align with ISIL or do we maintain fidelity to 
our traditional bonds of loyalty to al-Qaeda Core?
    I think one thing we can observe pretty obviously is that 
success breeds success, and so that when ISIL has had success 
on the battlefield in taking over large swaths of territory in 
Iraq, that has served as a draw not only to foreign fighters 
who might want to choose where to bring their capabilities, but 
also to individuals who may be affiliated with other al-Qaeda 
groups who decide, ``I would like to go where the jihad is the 
most hot and where my ability to impact global jihad can be 
felt most acutely.'' And there is no doubt that at the level of 
individual al-Qaeda-affiliated individuals, that draw is out 
there. And it is something that we will see that will play out 
over time, whether ISIL would supplant al-Qaeda Core in terms 
of overall leadership of the global jihad. But it is clear if 
things trended in this direction for a long period of time, one 
could make that argument.
    Senator Baldwin. Thank you.
    Chairman Carper. All right. Thank you, Senator Baldwin.
    Senator Portman, please.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Thank you, Mr. Chairman, and I appreciate 
the testimony today and the opportunity to ask followup 
questions in another session.
    There is so much to go over, but I want to talk a little 
about what you have said today and what some of my colleagues 
have asked about in terms of Iraq and ISIL and how we got in 
this situation that we are in. Because I think it is important 
not only to determine what we do now in Iraq but also to look 
to Afghanistan and what we are doing or not doing there to 
ensure that we do not have a similar situation.
    With regard to Afghanistan, how do you assess the security 
forces there, the Afghan security forces, as compared to the 
Iraqi security forces, Mr. Rasmussen?
    Mr. Rasmussen. I would want to come back----
    Senator Portman. Specifically their capability to conduct 
counterterrorism operations against the Taliban and al-Qaeda 
partners.
    Mr. Rasmussen. I believe we have made a substantial amount 
of progress in bringing the Afghan National Security Force up 
to the level where they can carry out counterterrorist 
operations against known terrorist targets inside Afghanistan. 
What we will not know until we see over time is whether the 
Afghan Government is able to sustain that capability, invest 
and resource and sustain that capability over time so that they 
are able to do this as they encounter threats----
    Senator Portman. Do you think they have greater 
capabilities than the Iraqi security forces, assuming that, as 
was the case over the last few years, there is no U.S. support?
    Mr. Rasmussen. I am reluctant to put it in comparative 
terms because I am not sure I have the right expertise or 
knowledge to do that, and I would be happy to get you an answer 
to that from----
    Senator Portman. I think it would be interesting. I mean, 
here is my feeling from some of your reports which were made 
public and other assessments, is that, in fact, the Iraqi 
security forces were further along at the time at which we 
chose to pull out. And if we decide to do the same thing in 
Afghanistan and that the President has said that he has plans 
to have no more troops in Afghanistan by the end of 2016, that 
we may have a similar and I would say worse situation given the 
assessment of their capability to be able to have an effective 
counterterrorism operation.
    So I would just make the obvious point that we need your 
help in terms of learning lessons from Iraq and hopefully 
taking those lessons to Afghanistan.
    There has been a lot of attention recently to President 
Obama's comments last January about regional terrorist groups 
being like JV teams in relation to ISIL's seizing of Fallujah. 
I am sure you have followed that back and forth. And, Mr. 
Taylor, General Taylor, and Mr. Rasmussen, I am not going to 
ask you if you shared that assessment at the time because the 
President indicated that was an assessment that he had. But I 
will say, given all the bloodshed and resources expended in the 
two attempts to take Fallujah in 2004--and I was privileged to 
go there at one point in the 2004-05 time period, and those 
years of toil by our marines and soldiers in Anbar that 
followed to make it a peaceful place, those comments are 
particularly disconcerting. As you all know, we took serious 
losses. In one 6-month period in 2005, Ohio's reserve marine 
infantry battalion lost 46 marines; 22 were killed from one 
rifle company in Columbus. So obviously the struggle affects a 
lot of our communities, including back home in Ohio.
    I would ask you, Mr. Rasmussen, in 2013, did the 
intelligence community identify that al-Qaeda-associated groups 
in Syria had expressed interest in external operations?
    Mr. Rasmussen. Yes, and we can talk about that more in 
closed session.
    Senator Portman. OK.
    Mr. Rasmussen. But yes.
    Senator Portman. In 2013, did the intelligence community 
assess that a threat existed to Western Europe and the homeland 
from the flow of foreign fighters to and from Syria and Iraq?
    Mr. Rasmussen. Absolutely.
    Senator Portman. Do you assess that the Iraqi security 
forces who earlier this year had been operating without U.S. 
troops by their side for 2 years took any successful actions to 
wrest control of Fallujah from ISIL after they seized it in 
January 2014, earlier this year?
    Mr. Rasmussen. I would like to get an answer for the record 
for you on that, because I am certainly aware of Iraqi security 
force counterterrorism actions, but I want to be specifically 
responsive----
    Senator Portman. Well, let me ask a more general question. 
Were they successful in wresting control back?
    Mr. Rasmussen. Not in wresting control back of the areas 
you describe, as I understand it.
    Senator Portman. OK. I just think, again, we should learn 
some lessons from this. Finally, I would say do you assess that 
over the last 2 years that ISIL exploited access to fighters 
and resources in Syria as well as inconsistent counterterrorism 
operations or pressure from the Iraqis in Iraq to escalate 
their operations?
    Mr. Rasmussen. It is certainly true that they have 
escalated their operations and they have taken advantage of the 
lack of a real border between Iraq and Syria, which has allowed 
them to move resources back and forth to escape 
counterterrorism pressure, whether it comes from the Iraqi 
security forces or other elements inside Syria who are 
fighting.
    Senator Portman. Well, I think your answers to these 
questions are helpful in terms of us understanding what we 
should be doing in Iraq, but also, again, looking forward to 
Afghanistan, being sure that we are prepared to take the steps 
to avoid a repeat of this.
    Let me change topics, if I could, and this has to do with 
the Ebola crisis. General Taylor, I am interested to hear what 
work your office is doing to monitor the spread of Ebola in 
Africa. We now have over 2,300 people who have died. The World 
Health Organization (WHO) tells us today they expect 20,000 
people to die relatively soon. There are other groups that have 
much higher estimates. As you know, we had another U.S. citizen 
infected this week.
    If you could tell me, how are you monitoring this situation 
in Africa? What are you all doing?
    General Taylor. Sir, I&A, my office, works with our Office 
of Health Affairs who is leading the effort of the Department 
in an interagency response to the Ebola virus and its 
consequences potentially to the United States as well as in the 
Africa region. There are daily interagency meetings on that 
issue and trying to get aid to those countries to stem the 
spread of the virus, which has been----
    Senator Portman. Do you feel we have an effective 
interagency and intergovernmental coordination?
    General Taylor. I think we have effective U.S. interagency 
and intergovernmental coordination, but this is a global 
problem, and it is going to take a global solution to solve it. 
And the nations in the region are less capable in certain cases 
of handling the kind of infection that they are seeing, so it 
will require a global effort to stem this particular issue.
    Senator Portman. General Taylor, I understand Health 
Affairs is taking the lead here, but have you had the 
opportunity to look at what the U.S. Government did in 
relationship to malaria in the Malaria Initiative, the 
intergovernmental and in that case interagency process that we 
use?
    General Taylor. I have not personally looked at it, sir. I 
am just only aware of the efforts. My most recent experience 
has been with H1N1, which I think we had a very effective 
interagency coordination on that, but not the malaria.
    Senator Portman. I am concerned that we are, again, not 
being as aggressive as we could be, and I would just hope that 
the agency would take a look at what we have done in the past, 
and we have been relatively successful, not just with AIDS but 
also with the specific steps that we are taking on the Malaria 
Initiative to try to get more countries engaged and deal with 
the issue.
    One final question. Do you have any insights on how you see 
the spread of Ebola developing and what we should be doing here 
in this country? I noticed that, Ms. Spaulding, you talked 
about the National Preparedness Month, and one of my concerns 
is, based on some recent reports, we are not prepared. We have, 
unfortunately, a situation where if a pandemic were to occur, 
there are some shortfalls, including expirations on some of the 
medical response that will be necessary. Do you have thoughts 
about that?
    General Taylor. Sir, I would prefer to respond in a more 
holistic way in consultation with my colleagues, so if I could 
take that----
    Senator Portman. We would appreciate you getting back to 
the Committee on that.
    General Taylor. Yes, sir.
    Senator Portman. Thank you. Thank you, Mr. Chairman.
    Chairman Carper. Thank you. Thanks for those questions, 
especially the last one. Senator Ayotte, after you have spoken, 
asked questions, I am going to give Mr. Anderson an 
opportunity--we have not picked on you enough. I will just give 
you one opportunity for any point that you want to make or 
share with us in the open session before we go to the closed 
session. You will have that opportunity, OK?
    For now, Senator Ayotte.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. Thank you, Mr. Chairman. I want to thank 
you for holding this important hearing. I want to thank our 
witnesses for what they do to keep the country safe.
    Secretary Taylor, I wanted to followup on some of the 
questions that Senator Baldwin had asked, and I would ask all 
of you to give me some insight on a comment that I heard from 
our FBI Director. I think it is important that the American 
people understand what we are dealing with in terms of not only 
Americans but Westerners who have potentially traveled to Syria 
or have interest in traveling to Syria and joining with one of 
these extremist groups, including ISIL.
    So you had testified that more than 100 U.S. persons you 
are tracking, and you have identified those as those who have 
intended to go, those who have gone, and some of whom have been 
actually engaged and killed in this conflict.
    I note that the FBI Director Comey said in August, ``When I 
give you the number of 100 Americans, I cannot tell you with 
high confidence that it is 100 or 200, that it is 100 or 500, 
that it is 100 or 1,000 more, because it is so hard to track.'' 
Here is a very important question that I think people need to 
know, and that is, do we really know? And how many of these do 
we really have track of? And how many don't we have track of?
    General Taylor. Senator, I would share Director Comey's 
comments in terms of we do not know what we do not know, and I 
think that is the context in which he was making those 
comments. I think we have very high confidence on the number 
that we do know, and we have systems that help us identify more 
day in and day out. So I could sit here today and give the 
number of over 100, and tomorrow it may be that, based upon our 
intelligence investigation with the FBI, we would have more 
identities that we did not know about before.
    Senator Ayotte. But is the reality that while we have 
confidence in the 100, we really do not know how many more may 
be part of this?
    General Taylor. I think that is a fair statement.
    Senator Ayotte. I assume that is why Director Comey, who I 
certainly have a lot of respect for, made that statement when 
he was specifically asked about how confident we are in the 
number of 100.
    General Taylor. Well, given homegrown violent extremism, 
given the nature of how people radicalize, given the nature of 
the data on the Internet, it is very difficult to say with any 
degree of certainty that we know all that could be wanting to 
join this particular effort.
    Senator Ayotte. So we know that it may be more than the 100 
that we are talking about. With respect to the 100 that we do 
know, do we have track of all of them?
    General Taylor. Yes, ma'am, I would defer to my colleagues 
at the FBI who lead the joint task force looking at this issue 
for our government.
    Mr. Anderson. Senator, if I could address that, so I agree 
with General Taylor wholeheartedly. I could tell you any 
individual--and they definitely fit into the three categories 
that Mr. Rasmussen had talked about. Any individual that we can 
predicate an investigation on, the FBI has an open case on that 
individual, whether they are abroad or in the United States. We 
also dedicate an immense amount of resources to covering the 
individuals that we know about. I cannot actually get into all 
those in this session, but we will in detail in the next 
session.
    Senator Ayotte. Let me ask you, the 100 that we know about, 
what authorities do we have to revoke their passports? In other 
words, you are a United States citizen. Obviously you are 
entitled to certain rights. But what can we do to make sure 
that they cannot get back in the community if we believe that 
they have joined, for example, an extremist group like ISIL who 
has brutally and horrifically murdered two American 
journalists?
    General Taylor. Senator, it is a very complicated question 
in terms of taking away an American's passport. There are 
judicial means to do that. I am not an expert in that, but we 
can get you the answer of what are the authorities that would 
allow for that to happen.
    Senator Ayotte. Well, I think that is really important 
because we need to understand. We certainly do not want a 
situation where you all talk to someone, you do not have the 
authority to detain them, we are in a position where they have 
to appear before a judicial authority, but in the interim they 
are not detained and they have open access in America. So I 
would like a followup to know what those processes are, what 
tools you have at your hands when there is obviously evidence 
that an American is involved with a group like ISIL so that we 
can understand whether those authorities are sufficient. So I 
would appreciate a follow-up on that.
    I also wanted to ask, what I understand from hearing your 
testimony today is that you said that the threat of ISIL is 
really regionally focused, meaning the region of where they are 
operating in Iraq and Syria and the surrounding regions. What 
kind of access do they have to financing?
    Mr. Rasmussen. That has been one of our great concerns as 
ISIL has surged in Iraq, is that they have had the ability to 
draw on a wider array of sources for financing, including 
kidnap for ransom, simply occupying and taking over Federal 
Reserve holdings----
    Senator Ayotte. I saw an estimate of they are making at 
least $1 million a day. Is that a fair statement?
    Mr. Rasmussen. That is a fair estimate.
    Senator Ayotte. OK. And as I understand, they have safe 
havens in Syria, correct?
    Mr. Rasmussen. Yes.
    Senator Ayotte. And they are obviously taking over more 
territory in Iraq, correct? That is their design and one of the 
concerns we have with regard to what is happening in Iraq right 
now?
    Mr. Rasmussen. That is their ambition. In Iraq in recent 
weeks, Iraqi security force action in combination with United 
States military action has stemmed the ability of ISIL to gain 
more territory.
    Senator Ayotte. But they have some territory right now, you 
would agree with me.
    Mr. Rasmussen. Yes.
    Senator Ayotte. They have territory in Syria; they have 
territory in Iraq. They have a means to make money. And when we 
think about this threat on the passport issue, it is not just 
about Americans, right? I know, Secretary Taylor, in your 
testimony there are about 2,000 Westerners, but I have also 
seen estimates of 7,500 potential foreign fighters from all 
different countries that have joined this conflict, starting in 
Syria. I do not know how many of those have joined ISIL, but 
this threat goes beyond thinking about Americans.
    I know you talked about a good news story about more 
communication between other countries with regard to these 
individuals who have joined these extremist groups. But we also 
have a visa waiver program with countries like the United 
Kingdom and France, and so how good is our intelligence and 
ability to track those individuals? We talked about the 100, so 
we are worried about our people. But thinking about the 
individuals that do not need a visa to come travel to the 
United States of America, and as I understand it, there are 
actually thousands--the numbers that Great Britain is facing is 
much greater even than the United States. Can you give us a 
good assessment of how good a track we have on them and what 
ability we have to stop them from coming to the United States 
or to know exactly where they are so that we do not face a 
situation where someone is--the James Foley video, that 
individual who committed that barbaric murder, he was clearly 
from Great Britain. You could tell from his accent. So an 
individual like that coming to the United States and then 
participating in an action here.
    So can you give us a little more insight on that? Because I 
think it is important for people to understand.
    General Taylor. Yes, ma'am. I would defer to Nick to talk 
about the intelligence cooperation that we have, which is 
significant, with our European partners and daily we exchange 
information. More importantly, a visa waiver does not mean 
people come to this country without screening. Every passenger 
coming to the United States from outside the United States is 
screened through our terrorist screening system, and if there 
is derogatory data, they are not allowed to come to the United 
States. So----
    Senator Ayotte. But that assumes we have the data, correct?
    General Taylor. Well, that assumes we have the data, and 
that is what intelligence collaboration and cooperation is all 
about, is making sure that, with our partners in Europe and 
other places, we are getting that data and getting it in a 
consistent fashion.
    Senator Ayotte. So I think this is all obviously a very 
important issue as well as knowing and tracking who these 
individuals are, if we do not have the data, we may just allow 
them in our country without being able to stop them from 
coming.
    My time is up, but I just want to say one thing that 
concerns me. I know we have talked today about believing that 
the focus on the threat of ISIL is a regional threat, but here 
we have a sophisticated terrorist organization which our own 
Secretary of Defense has said is beyond anything that we have 
seen. And, in fact, we have a situation where, Secretary 
Dempsey described this group as ``an imminent threat,'' and 
combined with the fact that they have financial means to make 
money. They have territory and some safe havens. We know that 
in January their leader basically threatened the United States 
of America. We have seen through their actions with the brutal 
murders of these two journalists that obviously the threat that 
they face--the type of barbaric actions they are willing to 
take against Americans. And then we know that if these people 
who join this, if we are not quite sure how many there are and 
who could return to the United States. I am concerned that it 
is an understatement to say that this is a regional threat in 
terms of what it might present to us in our homeland.
    Mr. Rasmussen. Mr. Chairman, can I respond to just one----
    Chairman Carper. Yes, just briefly.
    Mr. Rasmussen. By using the word ``regional'' in my remarks 
at the beginning, I by no means meant to imply not directed at 
the United States or U.S. citizens, because certainly today, 
currently, ISIL has the capability to threaten U.S. persons and 
interests not just in Iraq proper but in surrounding regional 
States. So our embassies, our personnel, our diplomats, and 
even non-official Americans are certainly----
    Senator Ayotte. But what about here?
    Mr. Rasmussen. As I said, if allowed over time to utilize 
the safe haven that they currently are enjoying----
    Senator Ayotte. So right now you do not think they have 
that capacity.
    Mr. Rasmussen. Right now we assess that they do not have 
active, ongoing plots aimed at the United States homeland.
    Senator Ayotte. So that is a different question of whether 
they have the capacity. We do not know of any active, ongoing 
threats or plots, but----
    Mr. Rasmussen. And we do not assess right now that they 
have the capability to mount an effective, large-scale plot 
inside the United States.
    Senator Ayotte. Large scale, correct?
    Mr. Rasmussen. Another piece of this that you cannot 
necessarily account for are individuals that we talked about 
under the category of homegrown violent extremists who may 
self-identify as acting in sympathy with or in support of ISIL, 
maybe perhaps not even ever having touched ISIL leadership in 
any kind of command and control way, but in the aftermath of a 
potential attack, even here in the homeland, might self-
affiliate and describe--so I do not mean by any means to 
minimize the threat to ISIL. That is not my intent. I was 
simply trying to describe in, kind of in a sense, concentric 
rings the levels of concern that we have at present versus what 
we see developing more over time.
    Senator Ayotte. Thank you.
    Mr. Rasmussen. There is no doubt that what you have 
described with the foreign fighters is what gives them the 
capability to threaten the homeland over the longer term.
    Senator Ayotte. OK. Thank you.
    Senator Coburn. I would just add one point. You have to 
take, in fact, the exhortation of various members of ISIL to 
come across our Southern border. It is out there. It is in the 
social media. So I know you all are looking at that, but the 
fact is that is pretty scary because you talk about what we do 
not know. We do not know the people who are coming across our 
border, what their threat is to us. We do not know.
    Chairman Carper. I said, Mr. Anderson, we would give you an 
opportunity to have a closing thought, please.
    Mr. Anderson. Thank you, Mr. Chairman. If I could, I would 
just make a closing remark and turn back to cyber for a second.
    The one thing that I think the Committee needs to know--and 
they probably do--is when it comes to cyber, I have never seen 
more cooperation in my entire law enforcement career than I 
have in the last year or so. The people at this table, DHS, 
Secret Service, a large variety of our intelligence partners, 
we all get it. We get that this is something that is going to 
go through from now to the next several years in our 
government. This is a deep concern of ours, to work together 
and work toward a fix.
    When we talked a little while ago about a number of Federal 
departments within our government possibly could be hacked, or 
if they were hacked and they just did not know about it. I 
think one of the things that I know we are all working on and I 
know the legislature up here is also, we are trying to figure 
out how we share real-time information with our private sector 
partners. I think that is absolutely imperative, Mr. Chairman, 
and I think my colleagues here would echo that. And one of the 
main reasons is because everyone knows a lot of our classified 
and very sensitive technologies are developed, designed, and 
then built out in the private sector way before they are ever 
classified. Our adversaries know this, whether it is 
counterintelligence, counterespionage, economic espionage, 
counterterrorism. I have had the pleasure over the years to 
testify as the Assistant Director of Counterintelligence to 
Chairman Feinstein, also Dr. Coburn many times regarding this 
kind of scare for us. And I would tell you that the one thing 
that I see is the whole of government coming together as one on 
this threat and really working toward a positive fix.
    Thank you, Mr. Chairman.
    Chairman Carper. And I would just add to that, the threat 
of ISIS and these other terrorist groups, are they a threat? 
Sure they are, and we have to be eternally vigilant. And this 
is not any time to pat ourselves on the back and become 
complacent. If anything, it is time to be more vigilant. We 
will see what the President has to say tonight. I hope he will 
be very strong. I hope he will lay out a game plan that will 
enable us, working with an armada of other nations around the 
world, to destroy this threat. And that is what I am looking 
for, and hopefully that is what we will get.
    I would also say just one last word. I always come back to 
underlying causes, root causes. And, Nick, when I visited, we 
talked about underlying and root causes. And I would just say a 
couple of them.
    One underlying cause, al-Qaeda in Iraq was on their back, 
they were almost done about 7 years ago. And the policies of 
the Iraqi Government actually helped them get off the mat and 
back into the game and to be the threat that they are today. 
And my hope is that the new prime minister, the new government 
that is being stood up in Iraq will be part of the solution to 
help us accomplish what we did 7 years ago and to do it again, 
and only this time for good.
    All right. You have been great to be here with us. I 
appreciate our colleagues being here as well. We are going to 
move to a secured setting, and with that, this portion of the 
hearing is adjourned.
    [Whereupon, at 11:16 a.m., the Committee proceeded to other 
business.]
                            A P P E N D I X

                              ----------                              


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
</pre></body></html>
